WAIVER

SUPREME COURT OF THE UNITED STATES

Supreme Court Case No. 20-1481
Adrian Parbhudial y, Jaime LaManna, Supt.

(Petitioner) (Respondent)

 

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

Please check one of the following boxes:
@ Please enter my appearance as Counsel of Record for all respondents.

(There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

1 certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has changed since/ygur admission):

Signature
Date; _April 28, 2021

Lisa Ellen Fleischmann
OM. @Ms. Mrs. Qj Miss
Firm NYS Attorney General's Office

(Type or print) Name

Address 28 Liberty Street
City & State New York, New York Zip 10005

Phone.2!2-416-8802

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Jonathan I. Edelstein, Esq.
